No. _______________________
____________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
____________________________________
BYRON JONES,
Petitioner
v.
UNITED STATES,
Respondent
____________________________________
ON PETITION FOR A WRIT OF CERTIORARI TO
THE FIFTH CIRCUIT COURT OF APPEALS,
CASE NO. 19-30935
JOLLY, JONES, SOUTHWICK, CIRCUIT JUDGES.
______________________________________________________

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
________________________________________________________
The petitioner asks leave to file the attached petition for a writ of certiorari without
prepayment of costs and to proceed in forma pauperis.

Please check the appropriate boxes:
 Petitioner has previously been granted leave to proceed in forma pauperis in the
following court(s):
United States District Court for the Eastern District of Louisiana
5th Circuit Court of Appeal
1

 Petitioner has not previously been granted leave to proceed in forma pauperis in any
other court.
 Petitioner’s affidavit or declaration in support of this motion is attached hereto.
 Petitioner’s affidavit or declaration is not attached because the court below appointed
counsel in the current proceeding, and:
 The appointment was made under the following provision of law: CRIMINAL
JUSTICE ACT
 a copy of the order of appointment is appended.

_______________________________
(Signature)

2

Kelley Williams
From:
Sent:
To:
Subject:

cmecf_caseprocessing@ca5.uscourts.gov
Friday, November 15, 2019 8:56 AM
Kelley Williams
19-30935 USA v. Byron Jones, et al "Information for CJA Counsel"

***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of record and
parties in a case (including pro se litigants) to receive one free electronic copy of all documents filed electronically, if
receipt is required by law or directed by the filer. PACER access fees apply to all other users. To avoid later charges,
download a copy of each document during this first viewing.
United States Court of Appeals for the Fifth Circuit
Notice of Docket Activity
The following transaction was entered on 11/15/2019 at 8:55:25 AM CST and filed on 11/15/2019
Case Name:
USA v. Byron Jones, et al
Case Number: 19-30935
Document(s): Document(s)

Docket Text:
CJA APPOINTMENT for Attorney Ms. Rachel Isabel Conner for Mr. Byron Jones. Counsel must use the eVoucher system
to file the voucher at disposition of the case. Please see the attached document for further guidance.
ORIGINATING COURT DISTRICT: ELA
ORIGINATING CASE NUMBER: 2:13-CR-205-2
DEFENDANT NUMBER: 2
DATE OF APPOINTMENT: 11/13/2019 [19-30935] (MRW)
Notice will be electronically mailed to:
Ms. Rachel Isabel Conner: rachel@connerdefense.com, kelley@connerdefense.com
The following document(s) are associated with this transaction:
Document Description: Notice to Appointed Counsel
Original Filename: /opt/ACECF/live/forms/MonicaWashington_1930935_9190460_InfoSheetforCJACounsel_447.pdf
Electronic Document Stamp:
[STAMP acecfStamp_ID=1105048708 [Date=11/15/2019] [FileNumber=9190460-0]
[56e719083f4f1541d0aa86225d575ee3935aee6b581fcbc9d53d3b62921480e92b98983ae4eb16f75238fb85b04a3fe2716
73538fe8780134f615c0be54daf6c]]
Recipients:


Ms. Rachel Isabel Conner
1

Case: 19-30935

Document: 00515200509

Page: 1

Date Filed: 11/15/2019

NOTICE TO APPOINTED COUNSEL
**PLEASE READ CAREFULLY**

The federal judiciary's electronic vouchering (eVoucher) system was implemented in the Fifth Circuit Court of Appeals on
December 7, 2015. Paper vouchers for work in appeals are no longer accepted.
EVOUCHER
The eVoucher system has been designed to electronically replicate the paper vouchering process. It is a web−based application
that allows attorneys to make contemporaneous time and expense entries as the work progresses. At the end of the
representation, the individual entries are cumulated into a virtual voucher which the attorney submits to the court
electronically. Scanned copies of supporting material, such as receipts for expense items, may be attached to the voucher file.
The system prevents mathematical errors, substantially simplifies the process of voucher preparation, facilitates notification to
counsel regarding voucher status, and streamlines the process of voucher approval and payment.
BILLING AND VOUCHER SUBMISION
Please refer to the Fifth Circuit's CJA Home Page (http://www.lb5.uscourts.gov/cja2/) for detailed instructions about how
to bill time and expenses and for information on applicable hourly rates and maximum compensation limits. The rules
governing the billing of time and expenses compensable under the Criminal Justice Act have not changed with the
implementation of eVoucher.
If a voucher requests an amount in excess of the applicable presumptive limit, a CJA 27 form or memorandum that provides
an explanation will be required and should be submitted as an attachment to the electronic voucher.
In non−capital cases, vouchers should not be submitted until the end of the case in the court of appeals, including any
requests for rehearing.
In capital cases, attorneys may submit vouchers requesting interim payment of fees and expenses after the completion of
significant milestones in the case, for instance, completion of briefing or completion of oral argument. Interim vouchers must
be designated as such.
A voucher requesting payment for any work on a petition for certiorari must be accompanied by a copy of the petition. If a
final voucher has already been submitted for work on the appeal itself, the voucher for the petition for certiorari should be
designated "supplemental."
FAQ AND OTHER INFORMATION
A list of frequently asked questions, and a copy of the Fifth Circuit's Plan Under the Criminal Justice Act for Representation
on Appeal, is available on the CJA Home Page (http://www.lb5.uscourts.gov/cja2/).
If you need assistance with CJA vouchers please email cja_request@ca5.uscourts.gov or call 504−310−7765.
Additional information on Criminal Justice Act Guidelines may be found at:
http://www.uscourts.gov/FederalCourts/AppointmentOfCounsel/CJAGuidelinesForms/GuideToJudiciaryPolicyVolume7.aspx
ALL PAYMENTS MADE PURSUANT TO THE CRIMINAL JUSTICE ACT ARE SUBJECT TO POST−AUDIT
Unless time entries are made in eVoucher contemporaneously with the work performed, counsel must maintain other
contemporaneous time and expense records for three years after approval of the final voucher. Any overpayments are subject
to collection, including through deductions from future voucher payments.

Case: 19-30935

Document: 00515200509

Page: 2

Date Filed: 11/15/2019

CJA 19 (Rev. 4/01)

NOTICE TO COURT−APPOINTED COUNSEL
OF PUBLIC DISCLOSURE OF ATTORNEY FEE INFORMATION
The Criminal Justice Act (CJA), 18 U.S.C. § 3006A, was amended in 1998 to require that the amounts paid to
court−appointed attorneys be made publicly available upon the court's approval of the payments. Although the amended
paragraph of the statute, § 3006A(d)(4), expired after two years and thus only applies to cases commenced between January
25, 1998, and January 24, 2000, the corresponding guideline (paragraph 5.01 of the Guidelines for the Administration of the
Criminal Justice Act and Related Statutes, Volume VII, Guide to Judiciary Policies and Procedures) continues as a matter of
Judicial Conference policy. The court may disclose an unredacted copy of a payment voucher submitted by defense counsel,
or a redacted copy of a voucher indicating only the amounts approved for payment according to categories of services listed in
the statute. The extent of disclosure depends on whether the case is pending and on whether the court determines that certain
interests (listed below in part B.1) require the redaction of detailed information on the voucher. Upon court approval of a
voucher claim, payment information will be made available as follows:
A. BEFORE OR DURING THE TRIAL: After redacting any detailed information provided to justify the expenses, the
court shall make available to the public only the amounts approved for payment. Upon the completion of trial, unredacted
copies of the vouchers may be released, depending on whether an appeal is being pursued and whether the court determines
that one or more of the interests listed in part B.1 require the redaction of information.
B. AFTER THE TRIAL IS COMPLETED: The court shall make available to the public either redacted or unredacted
vouchers as follows:
1. If trial court proceedings have been completed and appellate review is not being pursued or has
concluded at the time payment is approved: The court shall make an unredacted copy of the payment
voucher available to the public unless it determines that one or more of the interests listed below justify
limiting disclosure to the amounts approved for payment in the manner described in part A. The interests that
may require limiting disclosure include:
(1) the protection of any person's 5th Amendment right against self−incrimination;
(2) the protection of the defendant's 6th Amendment right to effective assistance of counsel;
(3) the defendant's attorney−client privilege;
(4) the work product privilege of the defendant's counsel;
(5) the safety of any person; and
(6) any other interest that justice may require (with the exception that for death penalty cases
where the underlying alleged criminal conduct took place on or after April 19, 1995, the
amount of the fees shall not be considered a reason justifying any limited disclosure).
2. If appellate review is being pursued at the time payment is approved: The court shall make available to
the public only the amounts approved for payment in the manner described in part A unless it finds that none
of the interests listed above in part B.1 will be compromised.
C. AFTER THE APPEAL IS COMPLETED: The court shall make an unredacted copy of the payment voucher available to
the public unless it determines that one or more of the interests listed in B.1 justify limiting disclosure to the amounts
approved for payment in the manner described in part A.
If counsel believes that any of the interests listed above in part B.1 justify limiting disclosure to the amounts
approved for payment, counsel should submit to the court a written request, identifying the interests at risk and the
arguments in support of providing protection, AT OR BEFORE THE TIME A CLAIM FOR PAYMENT IS MADE.
Failure to do so could result in the public availability of unredacted copies of your vouchers without further notice.

This constitutes notice under CJA Guideline 5.01. You may NOT receive additional notice
before any payment information is made available to the public.

